Office of Material Loss Reviews
Report No. MLR-11-006


Material Loss Review of Frontier Bank,
Everett, Washington




                                  December 2010
                                      Executive Summary

                                      Material Loss Review of Frontier Bank,
                                      Everett, Washington,
                                                                                      Report No. MLR-11-006
                                                                                             December 2010

Why We Did The Audit

On April 30, 2010, the Washington Department of Financial Institutions (DFI) closed Frontier Bank
(Frontier), Everett, Washington and named the FDIC as receiver. On June 2, 2010, the FDIC notified the
Office of Inspector General (OIG) that Frontier’s total assets at closing were $3.3 billion and that the
estimated loss to the Deposit Insurance Fund (DIF) was $1.3 billion. As of September 3, 2010, the
estimated loss to the DIF had decreased to $1.27 billion, or about 39 percent of the institution’s total
assets. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended by the
Dodd-Frank Wall Street Reform and Consumer Protection Act, the OIG conducted a material loss review
(MLR) of the failure of Frontier.

The audit objectives were to (1) determine the causes of Frontier’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of Frontier, including the FDIC’s implementation of
the PCA provisions of section 38 of the FDI Act. In addition, the OIG engaged KPMG LLP to review
certain issues related to the bank’s failure.

Background

Frontier, headquartered in Everett, Washington, was established as a state nonmember bank and insured
in 1978. In 2002, citing efficiencies to be derived by having the bank and parent holding company
supervised by the same regulator, the bank became a Federal Reserve member. The bank was 100
percent owned by Frontier Financial Corporation (FFC), a one-bank holding company. The parent
company’s stock was publicly traded and widely held, with directors and officers controlling less
than 10 percent. In November 2005, citing a desire to be supervised locally, the institution reverted to a
state nonmember bank. In 2006 and 2007, FFC acquired NorthStar Bank and the Bank of Salem,
respectively, and merged them into Frontier.

Frontier operated 48 branches in western Washington and 3 in Oregon. The bank’s main office was
located in Snohomish County, Washington. More than half of the bank’s total deposits were in
Snohomish County, with the institution holding the highest market share in the county at more than
16 percent. The majority of Frontier’s lending was in commercial real estate (CRE), with a particular
focus on residential acquisition, development, and construction (ADC) loans. Frontier relied increasingly
on Internet certificates of deposit, brokered deposits, and Federal Home Loan Bank borrowings to fund its
loan growth.

Audit Results

Causes of Failure and Material Loss

Frontier’s failure was attributed primarily to weak Board and management oversight of its high CRE and
ADC loan concentrations. Specifically, the Board and management did not establish risk management
practices commensurate with the risks associated with this lending, some of which involved speculative
construction lending. Weak credit administration and loan underwriting practices contributed to the asset
quality problems that developed when the bank’s real estate lending markets deteriorated. Further,


                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Frontier Bank,
                                      Everett, Washington
                                                                                       Report No. MLR-11-006
                                                                                              December 2010

although the bank was considered Well Capitalized until March 20, 2009, capital levels did not support
the risks associated with its high CRE and ADC concentrations.

As the economy and real estate market started to decline, the bank’s loan losses and increases in the
allowance for loan and lease losses eroded capital, weakened liquidity, and led to negative earnings. The
holding company injected $5 million in capital during August 2008 but was unable to provide additional
financial support for the bank or raise additional capital through other sources once the economy and real
estate market declined. In addition, the bank increasingly relied upon potentially volatile non-core
funding sources to support its loan growth. The DFI closed Frontier because the institution was unable to
raise sufficient capital to support its operations.

The FDIC’s Supervision of Frontier

The FDIC, in coordination with the DFI, provided ongoing supervisory oversight of Frontier through
regular onsite risk management examinations and two visitations. Through its supervisory efforts, the
FDIC identified key risks in Frontier’s operations and brought these risks to the attention of the bank’s
Board and management through examination and visitation reports. Such risks included the institution’s
weak credit administration and loan underwriting practices, and reliance on potentially volatile funding
sources. Further, examiners consistently reported that Frontier had concentrations in CRE and ADC
loans and made recommendations related to establishing limits for and monitoring those concentrations.
Examiners also reported apparent violations of laws and regulations and contraventions of statements of
policy and guidance associated with the institution’s lending practices. As a result of the 2008
examination, the FDIC and the DFI issued a Cease and Desist Order.

Although Frontier’s financial performance was considered satisfactory at the time of the 2007
examination, in hindsight, a more proactive approach to the bank’s risks and performance may have been
warranted to address high concentrations in CRE and ADC loans, increased reliance on non-core funding
to support growth, and weak credit administration and loan underwriting practices. Such an approach
could have included lowering key supervisory ratings and pursuing informal action to obtain an earlier
commitment from the Board to diversify the bank’s loan portfolio, and/or requiring the bank to maintain
higher capital levels commensurate with the risks associated with high CRE and ADC concentrations.

The FDIC has taken a number of actions to enhance its supervision program based on the lessons it has
learned from institution failures during the financial crisis. With respect to the issues discussed in this
report, the FDIC has, among other things, reiterated broad supervisory expectations for managing risks
associated with CRE and ADC loan concentrations to its supervised institutions and examiners. The
FDIC has also recently provided training to its examination workforce wherein the importance of
assessing an institution’s risk management practices on a forward-looking basis was emphasized.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner.




                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of Frontier Bank,
                                     Everett, Washington
                                                                                     Report No. MLR-11-006
                                                                                            December 2010




Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On December 2, 2010, the Director,
DSC, provided a written response to the draft report. DSC reiterated the OIG’s conclusions regarding the
causes of Frontier’s failure. With regard to our assessment of the FDIC’s supervision of Frontier, DSC’s
response discussed the number of examinations conducted between 2006 and 2010 described in our
report. Further, DSC’s response reiterated that the 2008 joint FDIC/DFI examination revealed that
Frontier’s condition was unsatisfactory with deficiencies of such magnitude that a composite “4” rating
was assigned and a C&D issued. The 2009 examination concluded that asset quality had further
deteriorated, operating losses were rapidly eroding capital, and liquidity was inadequate, and Frontier was
downgraded to a composite “5” rating. Frontier was unable to raise capital from external sources to
support its operations and remain viable.

DSC indicated that strong supervisory attention is necessary for institutions with high CRE and ADC
concentrations, such as Frontier, and referenced guidance that the division has issued to remind examiners
to take appropriate actions when risks associated with those concentrations are imprudently managed.
DSC also stated that supervisory guidance has been issued to enhance the division’s supervision of
institutions with concentrated CRE/ADC lending and reliance on volatile non-core funding.




                                 To view the full report, go to www.fdicig.gov
                                Contents
                                                                       Page
Background                                                               2

Causes of Failure and Material Loss                                      3
  Board and Management Oversight                                         4
  Concentrations in CRE and ADC Loans                                    4
  Credit Administration and Loan Underwriting                            8
  Reliance on Non-Core Funding                                          10
  Capital Levels Commensurate with Risk Profile                         11

The FDIC’s Supervision of Frontier                                      12
   Supervisory History                                                  13
   Supervisory Response to Key Risks                                    15
   Supervisory Lessons Learned                                          20
   Implementation of PCA                                                21

Corporation Comments                                                    23

Appendices
  1. Objectives, Scope, and Methodology                                 24
  2. Glossary of Terms                                                  27
  3. Acronyms                                                           30
  4. Corporation Comments                                               31

Tables
   1. Selected Financial Information for Frontier, 2005 to 2010          3
   2. Frontier’s CRE Concentrations Compared to Peer Group               6
   3. Frontier’s ADC Concentrations Compared to Peer Group               6
   4. Frontier’s Adversely Classified Assets                             7
   5. Frontier’s Allowance for Loan and Lease Losses                    10
   6. Frontier’s Funding Sources                                        11
   7. Frontier’s Total Risk-Based Capital Ratios Compared to Peers      12
   8. Frontier’s Examination History, 2005 to 2010                      14
   9. Frontier’s Capital Levels                                         22


Figure
   Composition and Growth of Frontier’s Loan Portfolio, 2004 to 2010     5
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           December 2, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Frontier Bank,
                                                Everett, Washington
                                                (Report No. MLR-11-006)

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, as amended by
the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform
Act), the Office of Inspector General (OIG) conducted a material loss review of the
failure of Frontier Bank, (Frontier), Everett, Washington. The Washington Department
of Financial Institutions (DFI) closed the institution on April 30, 2010, and named the
FDIC as receiver. On June 2, 2010, the FDIC notified the OIG that Frontier’s total assets
at closing were $3.3 billion and that the estimated loss to the Deposit Insurance Fund
(DIF) was $1.3 billion. As of September 3, 2010, the estimated loss to the DIF had
decreased to $1.27 billion, or about 39 percent of the institution’s total assets.1 The
estimated loss exceeds the $200 million MLR threshold for losses occurring between
January 1, 2010 and December 31, 2011, as established by the Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of Frontier’s
failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision
of Frontier, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. In addition, the OIG engaged KPMG LLP (KPMG) to review certain issues
related to the bank’s failure.



1
  Frontier’s estimated loss is the highest in the State of Washington, fourth highest of FDIC-supervised
institutions that have failed and have resulted in a material loss from February 2007 to August 2010, and
eighth highest of all banks that failed and resulted in a material loss from February 2007 through August
2010.
This report presents our analysis of Frontier’s failure and the FDIC’s efforts to ensure
that the Board of Directors (Board) and management operated the institution in a safe and
sound manner. The report does not contain formal recommendations. Instead, as major
causes, trends, and common characteristics of institution failures are identified in our
material loss reviews, we will communicate those to FDIC management for its
consideration. As resources allow, we may also conduct more in-depth reviews of
specific aspects of the FDIC’s supervision program and make recommendations as
warranted.2

Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of terms,
including material loss, the FDIC’s supervision program, and the Uniform Financial
Institutions Rating System, otherwise known as the CAMELS ratings. Appendix 3
contains a list of acronyms. Appendix 4 contains the Corporation’s comments on this
report.


Background
Frontier, headquartered in Everett, Washington, was established as a state nonmember
bank and insured in 1978. In 2002, citing efficiencies to be derived by having the bank
and parent holding company supervised by the same regulator, the bank became a Federal
Reserve member. The bank was 100 percent owned by Frontier Financial Corporation
(FFC), a one-bank holding company. The parent company’s stock was publicly traded
and widely held, with directors and officers controlling less than 10 percent. In
November 2005, citing a desire to be supervised locally, the institution reverted to a state
nonmember bank. In 2006 and 2007, FFC acquired NorthStar Bank and the Bank of
Salem, respectively, and merged them into Frontier.3

Frontier operated 48 branches in western Washington and 3 in Oregon. The bank’s main
office was located in Snohomish County, Washington. More than half of the bank’s total
deposits were in Snohomish County, with the institution holding the highest market share
in the county at more than 16 percent. The majority of Frontier’s lending was in
commercial real estate (CRE), with a particular focus on residential acquisition,
development, and construction (ADC) loans. Frontier relied increasingly on Internet
certificates of deposit (CDs), brokered deposits, and Federal Home Loan Bank (FHLB)
borrowings to fund its loan growth. Table 1 provides details on Frontier’s financial
condition as of March 31, 2010 and for the 5 preceding calendar years.




2
  A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.
3
  FDIC officials stated that loans from NorthStar Bank and the Bank of Salem did not have a negative
impact on Frontier’s loan portfolio.

                                                    2
Table 1: Selected Financial Information for Frontier, 2005 to 2010
       Financial
                            Mar-10          Dec-09          Dec-08         Dec-07       Dec-06         Dec-05
    Measure ($000s)
    Total Assets           $3,250,734      $3,592,123       $4,099,493     $3,873,712   $3,156,353    $2,599,503

    Total Loans            $2,670,113      $2,869,503       $3,778,733     $3,624,967   $2,921,304    $2,402,962

    Total Deposits         $2,846,886      $3,125,495       $3,280,887     $2,943,389   $2,455,266    $2,061,785

    Net Income (Loss)          $45,063       $285,595            $12,110     $75,946      $69,473           $52,091

    FHLB Advances            $360,326        $375,479           $429,417    $469,761     $350,033          $248,000

    Brokered Deposits        $315,180        $366,872           $561,038    $130,817      $44,940           $16,943

    Past Due Ratio             25.16%          24.52%            11.49%         .57%         .30%             .21%
    Total Risk-Based
    Capital/Risk
                                1.09%           3.38%            10.60%       10.62%       11.92%           11.39%
    Weighted Assets
Source: Uniform Bank Performance Reports (UBPR) for Frontier.




Causes of Failure and Material Loss
Frontier’s failure was attributed primarily to weak Board and management oversight of
the institution’s high CRE and ADC loan concentrations. Specifically, the Board and
management did not establish risk management practices commensurate with the risks
associated with this lending, some of which involved speculative construction lending.4
Weak credit administration and loan underwriting practices contributed to the asset
quality problems that developed when the bank’s real estate lending markets deteriorated.
Further, although the bank was considered Well Capitalized until March 20, 2009, capital
levels did not support the risks associated with its high CRE and ADC concentrations.

As the economy and real estate market started to decline, the bank’s loan losses and
increases in the allowance for loan and lease losses (ALLL) eroded capital, weakened
liquidity, and led to negative earnings. The holding company injected $5 million in
capital in August 2008 but was unable to provide additional financial support for the bank
or raise additional capital through other sources once the economy and real estate market
declined. In addition, the bank increasingly relied upon potentially volatile non-core
funding sources to support its loan growth. The DFI closed Frontier on April 30, 2010
because the institution was unable to raise sufficient capital to support its operations.




4
  Speculative construction lending involves the financing of projects for which a buyer has not yet been
identified.

                                                        3
Board and Management Oversight

The FDIC’s Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board and executive
officers, is perhaps the single most important element in the successful operation of an
institution. According to the Examination Manual, the Board has overall responsibility
and authority for formulating sound policies and objectives for the institution and for
effectively supervising the institution’s affairs. Executive officers, such as the President
and Chief Executive Officer and the Chief Lending Officer, have primary responsibility
for managing the day-to-day operations and affairs of the bank.

Frontier’s Board pursued growth and focused on CRE and ADC loans without
establishing effective risk management practices commensurate with the risks associated
with the resulting concentrations. As early as the 2005 examination, examiners cautioned
the bank’s management that the level of concentrations could pose risks to the bank,
particularly if the bank’s asset quality and capital deteriorated in the event of a downturn
in property values or general economic conditions.

Frontier was cited for credit administration deficiencies at each examination from 2005 to
2009. In addition, the bank was cited for loan underwriting weaknesses in 2005, 2007,
and 2008 and various violations of laws and regulations and contraventions of policy
statements from 2006 to 2010. In particular, the bank was cited for appraisal violations at
three examinations and one visitation and for contravention of policy statements
regarding the ALLL at one examination and one visitation.

Other indications of bank management’s pursuit of growth in spite of regulatory concerns
were: (1) the bank’s holding company was unsuccessful in completing an acquisition of
another bank in 2008 because the FDIC had concerns with Frontier’s consumer
compliance program; and (2) Frontier’s Board and management were still focusing on
increasing the bank’s lending operations in October 2008, despite the fact that, in August
2008, regulators had informed them that the bank’s CAMELS component ratings and
overall composite rating would be downgraded because of the bank’s significant
deterioration.

Concentrations in CRE and ADC Loans

Frontier’s growth strategy led to concentrations in CRE and ADC loans, which ultimately
caused the bank to fail. Frontier experienced significant asset growth—increasing from
$2.2 billion at year-end 2004 to over $4 billion at year-end 2008. To fund the growth,
Frontier became increasingly reliant on non-core funding sources, especially brokered
deposits, which went from $8.3 million at year-end 2004 to over $734 million by the end
of March 2009. During that same period, gross loans grew from approximately $2 billion
at year-end 2004 to approximately $3.8 billion by the end of 2008. Figure 1 illustrates
the general composition and growth of Frontier’s loan portfolio in the years preceding the
institution’s failure.



                                              4
Figure: Composition and Growth of Frontier’s Loan Portfolio, 2004 to 2010

    $4 ,0 0 0



    $3 , 50 0


    $3 ,0 0 0                                                       $1, 8 2 6
                                                       $1, 8 6 6


    $2 , 50 0
                                                                                  $1,0 54
                                           $1,3 4 7                                            $8 8 4

    $2 ,0 0 0                 $9 8 7                                                                     ADC

                  $6 2 8                                                                                 CRE
                                                                                                         O t her Lo ans
    $1, 50 0                                                        $1, 176
                                                        $1, 13 2                  $1,2 2 8    $1,2 13
                                           $1,0 2 4
    $1,0 0 0      $9 3 6      $9 6 7



       $50 0                                                         $788
                                           $566         $642                      $594         $579
                  $442         $465

          $0
                D ec - 0 4   D ec- 0 5   D ec- 0 6    D ec- 0 7    D ec- 0 8    D ec- 0 9    M ar - 10


                                               Per i o d End ed

Source: OIG analysis of Consolidated Reports of Condition and Income (Call Reports) for
        Frontier.

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System issued joint guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance). Although the Joint Guidance does not establish specific CRE lending
limits, it does define criteria that the agencies use to identify institutions potentially
exposed to significant CRE concentration risk. According to the Joint Guidance, an
institution that has experienced rapid growth in CRE lending, has notable exposure to a
specific type of CRE, or is approaching or exceeds the following supervisory criteria may
be identified for further supervisory analysis of the level and nature of its CRE
concentration risk:

   •      Total CRE loans representing 300 percent or more of total capital where the
          outstanding balance of the institution’s CRE loan portfolio has increased by
          50 percent or more during the prior 36 months; or

   •      Total loans for construction, land development, and other land (referred to in this
          report as ADC) representing 100 percent or more of total capital.

As of December 31, 2007, Frontier’s non-owner occupied CRE loans and ADC loans
represented 754 percent and 469 percent, respectively, of the institution’s total capital.
This trend continued through December 2008 when non-owner occupied CRE loans and
ADC loans represented 770 percent and 468 percent, respectively, of the institution’s
total capital. These levels are significantly higher than the criteria defined in the Joint
Guidance as possibly warranting further supervisory analysis.



                                                                         5
In addition, Frontier’s concentrations in CRE and ADC loans were well above the
institution’s peer group5 averages. Tables 2 and 3 illustrate the trend in the bank’s CRE
and ADC loan concentrations, respectively, relative to total capital and total loans, and as
compared to the institution’s peer group.

    Table 2: Frontier’s CRE Concentrations Compared to Peer Group*
                            CRE Loans as a                                    CRE Loans as a
     Period              Percent of Total Capital                          Percent of Total Loans
     Ended                           Peer         Frontier                           Peer          Frontier
                  Frontier          Group        Percentile         Frontier        Group         Percentile
Dec 2005            674%            360%             96               81%            48%              95
Dec 2006            659%            253%             98               81%            35%              97
Dec 2007            754%            284%             98               83%            38%              96
Dec 2008            770%            280%             97               79%            38%              96
Dec 2009          2,363%**          262%             99               80%            38%              98
Source: UBPR data for Frontier.
* Percentages for Frontier and peers include owner-occupied CRE.
**The CRE concentration percentage was high because capital had declined to an extremely low level,
rather than because of asset growth.

Table 3: Frontier’s ADC Concentrations Compared to Peer Group
                            ADC Loans as a                                    ADC Loans as a
     Period              Percent of Total Capital                          Percent of Total Loans
     Ended                           Peer         Frontier                           Peer          Frontier
                   Frontier         Group        Percentile         Frontier        Group         Percentile
Dec 2005            340%            107%             97               41%            14%              94
Dec 2006            374%             76%             97               46%            11%              97
Dec 2007            469%             96%             98               51%            13%              98
Dec 2008            468%             83%             98               48%            11%              98
Dec 2009           1,091%*           62%             99               37%             9%              98
Source: UBPR data for Frontier.
*The ADC concentration percentage was high because capital had declined to an extremely low level, rather
than because of asset growth.

Inadequate risk management practices, coupled with the decline in the Seattle,
Washington area real estate market in 2007, caused Frontier’s CRE and ADC loan
portfolios to deteriorate. Specifically, as borrowers defaulted on loans, the bank’s other
real estate owned (OREO)6 increased from zero in 2005, to $10 million in 2008, to more
than $191 million by March 2010.

From 2005 to 2007, Frontier’s adversely classified assets were 19 percent, 13 percent,
and 16 percent of Tier 1 Capital and reserves, respectively, and the past due and
nonaccrual loans were less than 1 percent of total loans. Regulators considered these
levels to be manageable and of limited supervisory concern. However, ADC lending
5
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. Frontier’s peer group included insured
commercial banks having assets greater than $3 billion.
6
  OREO is property taken over by a bank through loan foreclosures.

                                                     6
involves a greater degree of risk than permanent financing for finished residences or
commercial buildings. These risks generally include adverse changes in market
conditions between the time an ADC loan is originated and the time construction is
completed, as well as the inherent difficulty of accurately estimating the cost of
construction and the value of completed properties in future periods. Due to these and
other risk factors, ADC loans generally require greater effort to effectively evaluate and
monitor than other types of loans. Indeed, the downturn in the economy and real estate
market in late 2007 began to negatively impact the quality of Frontier’s assets,
particularly its ADC loan portfolio. As shown in Table 4, adversely classified assets
grew significantly from 2008 to 2010, as did past-due and nonaccrual loans.

       Table 4: Frontier’s Adversely Classified Assets
         Examination/Visitation          Adversely Classified      Past-Due and
                    Date                      Assets*            Nonaccrual Loans**
         March 14, 2005                          19%                   0.9%
         May 8, 2006                            13%                    0.3%
         June 4, 2007                           16%                    0.5%
         July 21, 2008                          103%                    4%
         March 23, 2009                         188%                    14%
         August 3, 2009                         360%                    27%
         January 11, 2010                       558%                    28%
        Source: Examination Reports for Frontier.
        *Ratio is a percentage of Tier 1 Capital and reserves.
        **Ratio is a percentage of total loans.

Frontier’s risk management practices for CRE and ADC lending did not evolve as the
risk of the bank’s portfolio increased. In that regard, from 2005 to 2009, examiners
reported the following concerns with Frontier’s credit risk management practices:

   •   In 2005, management had not implemented all of the CRE recommendations from
       prior examinations, as expected, and the CRE loan concentration risk remained a
       heightened concern, even with the sound quality of the CRE loan portfolio.

   •   In 2006, Frontier had the largest CRE concentration among Washington State
       chartered banks with assets over $1 billion, and ranked in the top 10 within the
       FDIC’s San Francisco region. Examiners made recommendations to improve
       bank management’s practices for monitoring and reporting concentrations. By
       2007, concentration reporting had been enhanced, but the sophistication of
       monitoring and risk measurement systems was not commensurate with the
       complexity of the portfolio.

   •   In 2008, the bank’s risk management practices relative to CRE and ADC lending
       were inadequate and not commensurate with the excessive concentration levels
       and troubled real estate market. By 2009, management improved monitoring of
       concentration risk in that (1) the Board had adopted new lower risk limits in
       January 2009, (2) management reduced the level of ADC loan commitments, and
       (3) the bank improved monitoring of the permanent CRE portfolio. However, the



                                                    7
       losses in the loan portfolio reflected continued erosion in property values,
       particularly land and residential lots.

Credit Administration and Loan Underwriting

According to the Examination Manual, the degree of risk in a real estate loan depends
primarily on the loan amount in relation to collateral value, the interest rate, and most
importantly, the borrower’s ability to repay in an orderly fashion. Placing undue reliance
upon a property’s appraised value in lieu of an adequate initial assessment of a debtor’s
repayment ability is a potential mistake.

Examinations from 2005 to 2007 generally found Frontier’s credit risk management
practices to be adequate, although examiners made some recommendations to improve
related controls. In particular, the June 2007 examination report noted that the bank’s
internal monitoring system was not commensurate with the complexity of the portfolio
and that bank management should ensure that the credit support staff levels kept pace
with the fast approval/high volume production environment. Examiners recommended,
among other things, enhancements to the bank’s: (1) documentation of material
underwriting facts; (2) credit policy; and (3) ALLL methodology.

The July 2008 examination determined that Frontier’s credit administration and risk
management practices were grossly inadequate and required immediate attention. The
majority of the loan problems were attributed to management’s relaxed lending standards,
a lack of emphasis being placed on secondary repayment sources, and a delayed
recognition of problem loans. Although management had begun to recognize the severity
of the asset quality problems, it had not been able to proactively identify and control
significant risks.

FIL-22-2008, entitled, Managing Commercial Real Estate Concentrations in a
Challenging Environment, dated March 17, 2008, recommends key risk management
processes to help institutions with significant ADC and CRE concentrations manage
through changes in market conditions, such as managing CRE loan portfolios closely and
maintaining updated financial and analytical information. In spite of this additional
guidance, Frontier failed to adequately improve the bank’s credit risk management
practices, and many of the weaknesses examiners identified in Frontier’s credit risk
management practices in the 2008 examination can be associated with one or more of the
key risk management processes discussed in FIL-22-2008. Specifically,

   •   Risk measurement information systems. Various loan reports could not be
       reconciled to the system as of the loan review date, and system limitations did not
       allow for the tracking of project status by builder.

   •   Nonaccrual loans. A request for placing loans on nonaccrual was not acted upon
       in a timely manner.




                                             8
    •   Loan servicing. Procedures were not uniform across branches, interest reserves
        were tracked on manual ledger cards rather than an automated system, a credible
        report identifying loans to one borrower did not exist, and workout
        responsibilities needed to be clarified among lending personnel and the special
        assets departments.

    •   Borrower repayment. The primary source of repayment was not materializing
        for many borrowers and bank management was looking to guarantors for
        repayment; however, global debt service calculations were not consistently in
        loan files and asset verification was limited.

At the August 2009 examination, examiners reported that Frontier’s management had
revised the bank’s lending and collection policy. However, the revised policy did not:
(1) specifically require current and complete financial information; (2) contain specific
provisions requiring the Board to determine whether the lending staff had the expertise to
properly supervise construction loans; or (3) contain specific provisions requiring the
Board to determine that adequate procedures were in place to monitor any construction
involved before funds were disbursed.

Allowance for Loan and Lease Losses (ALLL)

According to the Interagency Policy Statement on the Allowance for Loan and Lease
Losses (Policy Statement on ALLL), the ALLL represents one of the most significant
estimates in an institution’s financial statements and regulatory reports. As a result, each
institution is responsible for developing, maintaining, and documenting a comprehensive,
systematic, and consistently applied process for determining the ALLL.

Examinations from 2005 to 2007 generally found that Frontier’s ALLL methodology and
funding were satisfactory, but examiners made recommendations to enhance the
methodology. The July 2008 examination report concluded that the ALLL was
underfunded by at least $23 million, primarily as a result of increased adversely classified
assets. Further, procedures for implementing Financial Accounting Standards (FAS)
No.1147 needed improvement, including providing a written justification for using list
prices instead of current appraised values of loans.

The August 2009 examination and 2010 visitation reports stated the ALLL methodology
needed strengthening, with the ALLL underfunded by $140 million and $30 million,
respectively. Specifically, the 2010 visitation report stated that implementation of FAS
No. 58 and FAS No. 114 requirements were flawed because outdated allocation factors
were used and the fair value calculations were often based on appraisals over 6 months
old, with no adjustments for changes in market value.


7
  FAS No. 114, Accounting by Creditors for Impairment of a Loan, is one of the principal sources of
guidance on accounting for impairment in a loan portfolio under Generally Accepted Accounting Principles
(GAAP).
8
  GAAP’s FAS No. 5 provides accounting guidance for loss contingencies on a pool basis.

                                                   9
Table 5 provides a summary of the growth in Frontier’s adversely classified items and
corresponding increases in ALLL funding for examinations and visitations from March
2005 to January 2010.

       Table 5: Frontier’s Allowance for Loan and Lease Losses
                                                                                 Increase in
              Examination/              Total Classified       ALLL Computed
                                                                                ALLL Required
             Visitation Date                Assets               By Frontier
                                                                                by Examiners

                                             (Dollars in Millions)
        March 14, 2005                       $49,335                  $30,500         0
        May 8, 2006                          $43,648                  $38,730         0
        June 4, 2007                         $58,035                  $41,755         0
        July 21, 2008                       $446,021                  $78,722      $23,000
        March 23, 2009                      $861,975                 $112,556       N/A*
        August 3, 2009                     $1,305,683                $ 98,582     $140,000
        January 11, 2010                   $1,203,800                $151,349      $30,000
       Source: Examination reports and Call Reports for Frontier.
       *The adequacy of the ALLL was not in the scope of the visitation.


As the loan portfolio deteriorated and the ALLL was appropriately funded, the bank’s
earnings and capital were negatively impacted. Specifically, Frontier’s earnings
decreased from $76 million, as of December 31, 2007; to negative $12 million as of
December 31, 2008; and to negative $286 million, as of December 31, 2009.

Reliance on Non-Core Funding

In the years preceding its failure, Frontier became increasingly dependent on non-core
funding sources to support loan growth and maintain adequate liquidity. When properly
managed, such funding sources offer important benefits, such as ready access to funding
in national markets when core deposit growth in local markets lags planned asset growth.
However, non-core funding sources also present potential risks, such as higher costs and
increased volatility. According to the Examination Manual, placing heavy reliance on
potentially volatile funding sources to support asset growth is risky because access to
these funds may become limited during distressed financial or economic conditions.
Under such circumstances, institutions could be required to sell assets at a loss in order to
fund deposit withdrawals and other liquidity needs.

As shown in Table 6, as early as 2004, Frontier began to increasingly rely on non-core,
potentially volatile liabilities, including large time deposits, brokered deposits, and FHLB
borrowings, to fund strong loan growth that had outpaced core deposits.




                                                        10
Table 6: Frontier’s Funding Sources
                                                         Time Deposits
                                                                                  Brokered                FHLB
                                  Core Deposits           $100,000 or
       Period Ended                                                               Deposits             Borrowings
                                    ($000s)*                 More
                                                                                   ($000s)               ($000s)
                                                            ($000s)
 December 2004                      $1,512,970              $283,472                $8,313               $175,088
 December 2005                      $1,590,058              $471,726               $16,943               $248,000
 December 2006                      $1,910,091              $545,173               $44,940               $350,033
 December 2007                      $2,111,016              $832,373               $130,817              $469,761
 December 2008                      $2,384,010              $896,878               $561,038              $429,417
 December 2009                      $2,294,988              $830,509               $366,872              $375,479
Source: UBPR data for Frontier.
*Core deposits may include some deposits of less than $100,000 obtained through the bank’s use of an Internet listing
service and brokered deposits representing time deposits of less than $100,000.


Examination reports from 2005 to 2007 indicated that Frontier’s liquidity position was
considered to be satisfactory, although examiners made recommendations to improve the
bank’s contingency liquidity plan at each of those examinations. The July 2008 Joint
examination found that liquidity was unsatisfactory and funds management practices
needed improvement. The bank had become increasingly reliant on noncore funding
sources, with brokered deposits increasing by nearly 259 percent to $427 million,
representing 13 percent of the bank’s deposit base.

At the March 2009 visitation, liquidity levels were deficient. The bank’s borrowing lines
were restricted, and management could not accept or renew brokered deposits without a
waiver from the FDIC. Other viable funding sources were limited to retail deposits, cash
from loan payments and payoffs, the sale of assets, and/or external capital. In the August
2009 examination report, examiners stated that the bank’s liquidity position was deficient
and that the bank had essentially no borrowing capacity.

Capital Levels Commensurate with Risk Profile

From 2005 to 2007, Frontier’s Capital component rating was a “2.” During that
timeframe, the bank’s ADC concentrations were two to four times that of its peer group,
and the CRE concentrations were significantly higher than its peer group. However, as
shown in Table 7, the bank’s Total Risk-Based Capital ratios were consistently below
those of its peer group.

The Examination Manual states that institutions should maintain capital commensurate
with the level and nature of risks to which they are exposed. In addition, the amount of
capital necessary for safety and soundness purposes may differ significantly from the
amount needed to maintain a Well Capitalized or Adequately Capitalized position for
purposes of PCA. Had Frontier maintained higher capital ratios commensurate with its
risk profile, the losses to the DIF may have been mitigated to some extent when the
institution failed.




                                                          11
Table 7: Frontier’s Total Risk-Based Capital Ratios Compared to Peers
                       Dec-05    Dec-06      Dec-07      Dec-08      Dec-09      Mar-10
                                                   (Percent)
 Frontier                11.39    11.92       10.62       10.60       3.38        1.09
 Peers                   12.17    12.11       11.73       12.36       13.93       14.55
Source: UBPRs for Frontier.

While risk in Frontier’s CRE and ADC loan portfolio increased significantly between
2005 and 2008, the institution’s capital ratios did not increase proportionally to that risk.
The 2008 examination report stated that capital was less than satisfactory and did not
support the elevated risk profile of the institution. Examiners noted that the rapid
deterioration within the loan portfolio clearly illustrated the elevated risk to capital and
the concentration in real estate lending was of heightened regulatory concern, as this
portfolio exhibited significant weaknesses.

The March 2009 visitation found that the bank’s capital was insufficient to support the
high level of credit risk and strained the bank’s liquidity position. At the August 2009
examination, examiners recognized that, although management had worked diligently to
raise additional capital, immediate financial assistance was needed for the bank to remain
viable. Specifically,

    •   Frontier’s management submitted a capital plan to the FDIC on April 20, 2009.
        The plan contained projections for three scenarios with financial projections: no
        additional capital; $115 million in additional capital; and $230 million in
        additional capital.

    •   On July 2, 2009, Frontier’s management signed a merger and acquisition
        agreement with a private equity investor. The private equity investor submitted
        an application to become a bank holding company to the Federal Reserve Bank
        (FRB) of San Francisco. Due to unresolved issues, the application could not be
        approved by the October 10, 2009 agreement date.

The January 2010 visitation report stated that the bank’s capital levels continued to
shrink, which resulted in the bank falling to the Critically Undercapitalized capital
category per the PCA provisions of Part 325 of the FDIC Rules and Regulations.
Examiners stated that immediate assistance from shareholders or other external sources
of financial support was required. However, Frontier’s management was unable to raise
the additional capital to support the bank’s operations, and the bank was subsequently
closed on April 30, 2010.


The FDIC’s Supervision of Frontier
The FDIC, in coordination with the DFI, provided ongoing supervisory oversight of
Frontier through regular onsite risk management examinations and two visitations.
Through its supervisory efforts, the FDIC identified key risks in Frontier’s operations and

                                              12
brought these risks to the attention of the bank’s Board and management through
examination and visitation reports. Such risks included the institution’s weak credit
administration and loan underwriting practices, and reliance on potentially volatile
funding sources. Further, examiners consistently reported that Frontier had
concentrations in CRE and ADC lending and made recommendations related to
establishing limits for and monitoring those concentrations. Examiners also reported
apparent violations of laws and regulations and contraventions of statements of policy
and guidance associated with the institution’s lending practices. As a result of the 2008
examination, the FDIC and the DFI issued a Cease and Desist (C&D).

Although Frontier’s financial performance was considered satisfactory at the time of the
2007 examination, in hindsight, a more proactive approach to the bank’s risks and
performance may have been warranted to address high concentrations in CRE and ADC
loans, increased reliance on non-core funding to support growth, and weak credit
administration and loan underwriting practices. Such an approach could have included
lowering key supervisory ratings and pursuing informal action to obtain an earlier
commitment from the Board to diversify the bank’s loan portfolio, and/or requiring the
bank to maintain higher capital levels commensurate with the risks associated with high
CRE and ADC concentrations.

The FDIC has taken a number of actions to enhance its supervision program based on the
lessons it has learned from institution failures during the financial crisis. With respect to
the issues discussed in this report, the FDIC has, among other things, reiterated broad
supervisory expectations for managing risks associated with CRE and ADC loan
concentrations to its supervised institutions and examiners. The FDIC has also recently
provided training to its examination workforce wherein the importance of assessing an
institution’s risk management practices on a forward-looking basis was emphasized.

Supervisory History

From 2006 to 2010, the FDIC and the DFI conducted four examinations of Frontier.9 In
addition, the FDIC and the DFI conducted a joint visitation in March 2009, and the FDIC
conducted a final visitation in January 2010. The FDIC and the DFI also pursued an
enforcement action. Table 8 summarizes key supervisory information pertaining to these
examinations, visitations, and enforcement action.




9
    The 2005 examination was conducted by the DFI and the FRB of San Francisco.

                                                   13
Table 8: Frontier’s Examination History, 2005 to 2010
     Examination/
                      Examination
       Visitation                                     Supervisory       Contraventions
                       Visitation                                                               Supervisory
       Start Date                        Agency         Ratings             and/or
                       (Issuance                                                                  Action
     (Exit Meeting                                      (UFIRS)           Violations
                          Date)
          Date)
         3-14-05                                                               None.
                                         FRB-DFI         222122/2                                   None.
        (4-25-05)         6-13-05
          5-8-06                           FDIC-                                 9
                                                         222122/2                                   None.
         (6-1-06)         6-29-06           DFI
          6-4-07                           FDIC-                                 9
                                                         222121/2                                   None.
        (6-26-06)         7-24-07           DFI
         7-21-08                           FDIC-                                 9
                                                         444343/4                                  C & D**
        (8-13-08)        12-22-08           DFI
         3-23-09                           FDIC-                                                     Not
                                                         454453/4
         (4-1-09)         7-30-09           DFI                          Not Applicable*        Applicable***
                                                                                                 Monitored
         8-3-09                            FDIC-
                         12-30-09                        554554/5                9             compliance with
        (9-9-09)                            DFI
                                                                                                  the C&D.
                                                       CAMELS
                                                                                                 Continued to
        1-11-10
                                                      Composite 5                9
                                                                                                   monitor
                          2-19-10          FDIC       No Individual
        (2-5-10)                                                                               compliance with
                                                       Component
                                                                                                  the C&D.
                                                        Ratings
Source: The FDIC’s Virtual Supervisory Information on the Net (ViSION) and examination reports and
associated transmittal letters for Frontier.
*The scope of the visitation did not include reviewing the bank’s compliance with laws and regulations.
**Formal enforcement actions often take the form of C&Ds but under severe circumstances can also take
the form of insurance termination proceedings. The C&D became effective on March 20, 2009.
***Since the C&D had been become effective 3 days prior to the start of the visitation, it was not assessed
during the visitation.

The FDIC also conducted offsite monitoring of Frontier.10 Specifically, Frontier
appeared on the FDIC’s offsite review list as of June 30, 2008 and again as of
September 20, 2008 because of the bank’s asset quality—both loan and total asset growth
were above peer levels and the bank’s past due ratio was approximately 4 percent. The
resulting offsite reviews were ongoing while the July 21, 2008 examination process and
report were being completed.11 Frontier again appeared on the offsite review list as of
June 30, 2009, a result of being included on the FDIC Washington Office’s special report
of institutions with potentially underfunded ALLLs. A review of the bank’s ALLL was
included in the joint examination, which began on August 3, 2009. Based on the serious

10
   The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating system and the Growth Monitoring System. Both
tools use statistical techniques and Call Report data to identify potential risks, such as institutions likely to
receive a supervisory downgrade at the next examination or institutions experiencing rapid growth and/or a
funding structure highly dependent on non-core funding sources.
11
   The FDIC also prepared two Large Insured Depository Institution Program reports for Frontier that
covered the 4th quarter of 2007 and the 1st quarter of 2008, respectively. Neither report identified any risks
requiring immediate attention.


                                                       14
decline in the bank’s condition at the July 2008 examination, the bank was “double-
downgraded” in all CAMELS components and the composite rating, and the FDIC and
DFI began pursuing a C&D for unsafe and unsound banking practices. The C&D
became effective on March 20, 2009. Among other things, the C&D required the
institution to:

   •   Retain qualified management and increase Board participation.

   •   Develop a capital plan and increase the bank’s Tier 1 Capital in such an amount
       as to equal or exceed 10 percent of the bank’s total assets, and thereafter maintain
       Tier 1 Capital in such an amount as to equal or exceed 10 percent of the bank’s
       total assets.

   •   Develop or revise, adopt, and implement a comprehensive policy for determining
       the adequacy of the ALLL.

   •   Formulate a written plan to reduce the bank’s risk exposure for each asset that
       was adversely classified.

   •   Revise, adopt, and implement written lending and collection polices to provide
       effective guidance and control over the bank’s lending function.

   •   Revise the bank’s Concentration Policy to limit concentrations in CRE and ADC
       loans.

   •   Develop or revise, adopt, and implement a written liquidity and funds
       management policy.

   •   Submit a plan to reduce the bank’s reliance on non-core funding sources,
       including brokered deposits and borrowings, and reduce the bank’s non-core
       funding dependency ratio.

Supervisory Response to Key Risks

Frontier had been considered a well-performing institution and received composite “2”
supervisory ratings from 2005 through 2007. Examiners identified key risks and made
recommendations to address certain of those risks at each examination. Such risks
included the bank’s significant concentrations in CRE and ADC lending, credit
administration and loan underwriting weaknesses, and increased reliance on non-core
funding. For the 2005 through 2007 examinations, regulators requested that bank
management provide written responses to examiner recommendations, and, as a result,
follow-up occurred at the next regularly-scheduled examination. Following deterioration
of the bank’s financial condition, examiners downgraded the bank in 2008 and took
formal action in 2009 to address various unsafe and unsound practices. In hindsight,
however, a more proactive approach to the bank’s risks and performance in 2007 may
have been prudent.

                                            15
2005 Supervisory Activities

Prior to converting to a state nonmember bank, and having the FDIC as its primary
federal regulator, Frontier was subject to an examination conducted jointly by the FRB
and DFI. At that examination, FRB and DFI examiners found that the bank’s financial
condition remained sound, given the bank’s strong and stable earnings performance and
satisfactory and improving asset quality. The bank’s liquidity also remained satisfactory
although liquidity risk was rising to a moderate level since the last examination as
reliance on non-core funding to support loan growth slightly increased. In addition,
examiners highlighted the bank’s somewhat liberal underwriting practices that were
contrary to the bank’s loan policy. Further, examiners noted that the bank’s internal
control structure and risk management practices often resembled those of a smaller
community bank, rather than those of a $2 billion regional bank with moderate growth
objectives. Examiners also expressed heightened concern with the bank’s sizeable CRE
concentration and corresponding risk management practices and made the following
recommendations to improve monitoring of that concentration:

    •       Strategic and capital planning processes should be enhanced to consider the CRE
            loan concentration risk.

    •       Formal guidelines for performing annual updates on term CRE loans should be
            established.

    •       CRE loan concentration limits should be established as a percent of capital.

    •       Management should establish stress testing guidelines for variable rate term CRE
            loans to measure the exposure to cash flow from changes in vacancy and interest
            rates.

Capital was considered to be satisfactory given the risk of the institution. However, we
noted that the bank’s CRE and ADC concentrations were nearly double and triple those
of its peer group, respectively, while the bank’s Total Risk-Based Capital level was lower
than that of the bank’s peer group.

2006 Supervisory Activities

At the 2006 examination, examiners found that the bank’s overall condition was
satisfactory, with asset quality and credit risk management practices adequate as adverse
classification ratios declined. Liquidity and funds management practices were considered
satisfactory, although funding of significant loan growth through large CDs and long-
term FHLB advances had caused liquidity to decrease. However, examiners did
recommend that management:

        •    Enhance and expand concentration monitoring.


                                                16
       •    Correct apparent appraisal violations and real estate lending practice
            contraventions and improve associated policies and procedures.

       •    Improve real estate appraisal/evaluation procedures.

       •    Address the repeat recommendations on liquidity contingency planning.

Capital was considered to be satisfactory given the risk of the institution. However, we
noted that the bank’s CRE and ADC concentrations remained double and triple those of
its peer group, respectively, while the bank’s Total Risk-Based Capital level continued to
be lower than that of the bank’s peer group.

In addition, we noted that since the last examination, loans had grown from
approximately $2 billion to approximately $2.7 billion (a 35-percent increase) with ADC
loans increasing from approximately $628 million to over $1.1 billion (an 80-percent
increase). Further, brokered deposits increased from $8.3 million to over $25 million (a
201-percent increase).

2007 Supervisory Activities

Examiners found Frontier’s overall condition and asset quality to be satisfactory at the
2007 examination with strong earnings, sensitivity to market risk well-controlled, and
sufficient liquidity management. However, the bank had increased its reliance on FHLB
borrowings and brokered deposits, and adversely classified assets had slightly increased.

Examiners did recommend improvements related to the bank’s: (1) credit administration
and loan underwriting; (2) credit support staffing levels to permit documentation of
underwriting and concise monitoring updates; (3) liquidity contingency planning, a repeat
recommendation from the 2005 and 2006 examinations; (4) real estate concentration
measurement and monitoring capability, which did not sufficiently demonstrate assumed
risk or direction of risk; (5) credit policy; and (6) ALLL methodology.

Further, with respect to the CRE concentrations, examiners stated that:

   •       The Strategic Plan should be expanded to address CRE concentration rationale
           relative to overall growth objectives and financial targets.

   •       Concentrations contingency planning as expressed in the capital plan should be
           supported by periodic assessment of marketability of the portfolio, including an
           evaluation of the institution’s capacity to access the secondary market and
           comparison of internal underwriting standards with those of the secondary
           market.

   •       The internal monitoring system was not commensurate with the complexity of the
           portfolio.



                                               17
   •   Credit risk constituted the primary liquidity risk, given the tight on-balance sheet
       liquidity and a highly “loaned up” position maintained at or near 120 percent of
       total deposits.

Although capital was considered to be sufficient to support the institution’s risk profile,
we noted that Frontier’s Total Risk-Based Capital was lower than that of the bank’s peer
group, while Frontier’s CRE and ADC concentrations were significantly higher than
those of the peer group.

In addition, since the 2006 examination, loans had grown from approximately
$2.7 billion to over $3 billion (a 13-percent increase), with ADC loans increasing from
approximately $1.1 billion to over $1.4 billion (a 28-percent increase). During that same
timeframe, brokered deposits increased from just over $25 million to approximately
$84 million (236-percent increase).

2008 Supervisory Activities

Examiners identified rapid deterioration in Frontier’s condition, with poor asset quality
and the level of adversely classified assets being unacceptability high, having increased
seven-fold since the previous examination and representing 102 percent of Tier 1 Capital
and ALLL. Credit administration and risk management practices were grossly
inadequate, with examiners noting that the credit review function reported directly to the
Chief Credit Officer, which was a potential conflict of interest. Capital and liquidity
levels were unsatisfactory, and earnings needed improvement. Examiners stated that
CRE concentrations continued to be very high and should be reduced.

The proposed ratings were 343332/3, and the DFI and FDIC met with bank management
on August 13, 2008 to discuss the tentative findings. The examination report was
submitted to the SFRO for review on August 25, 2008. As is generally the case for
institutions with proposed composite ratings of “3”, the SFRO received a
recommendation for informal action in the form of a memorandum of understanding
(MOU) from the examination team. Meanwhile, economic conditions were reportedly
causing further deterioration of the bank's condition, complicating various matters of
concern, and making it even more critical to determine the appropriate supervisory
response. After extended consultation with the DFI, the final examination report was
issued on December 22, 2008. In comparison to the 2007 examination report, the 2008
final examination report reflected a “double-downgrade” to a composite “4” and “double-
downgrades” in all of the CAMELS components to 444343.

The FDIC also began pursuing a C&D on December 11, 2008 and started weekly
monitoring of Frontier’s liquidity on December 19, 2008. The C&D became effective on
March 20, 2009, 3 months after the final 2008 examination report was issued. By that
time, the bank had further deteriorated, with capital declining, past due and non-accrual
ADC loans increasing from slightly more than 6 percent to over 35 percent, brokered
deposits more than doubling from $354 million to over $734 million, and net income
declining from approximately 1 percent to a negative 3 percent. Further, as the bank


                                             18
foreclosed on loans, the bank’s OREO went from $3.7 million to approximately
$19 million.

FDIC officials indicated that a C&D is an effective tool if issued when the risks are
emerging. In the case of Frontier, the effectiveness of the C&D was limited because the
risks were already embedded in the institution. FDIC officials stated that the FDIC could
have been more proactive in recognizing the risks that were building at earlier
examinations. In that regard, as discussed previously, examiners identified risks and
deficiencies during the 2006 and 2007 examinations and recommended actions to address
them. However, earlier supervisory action aimed at securing more comprehensive
corrective action in key areas may have been warranted in connection with the 2007
examination, considering that Frontier had the highest CRE and ADC concentrations in
Washington and the bank’s capital levels were lower than those of its peer group when
the examination was conducted. Further, we noted that most of the provisions in the
March 2009 C&D were generally related to risks and deficiencies that had been identified
in those two prior examinations.

2009 Supervisory Activities

A limited scope joint visitation was conducted in March 2009 to assess Frontier’s
financial condition. Examiners reported that the bank’s overall condition continued to
deteriorate. Liquidity was deficient, as available funding sources were limited to on-
balance sheet liquidity. Asset quality was also critically deficient. An excessive level of
non-current and past due loans centered in the ADC portfolio contributed to the growing
volume of internally classified loans. Earnings performance and capital were
unsatisfactory, given the high risk profile of the loan portfolio. As a result, the Asset
Quality and Liquidity components were further downgraded to a “5”.

Examiners also reported that, in December 2008, Frontier made changes to its Board and
senior executive team, with a new Chairman of the Board, a new CEO, and a new
President. Further, bank management formed the Special Assets Group (SAG) to handle
and manage the growing number of internally classified loans supported by 22 full-time
employees, which increased to 34 at this visitation.

In August 2009, a full-scope joint examination was conducted. Examiners reported that
Frontier’s overall condition had continued to deteriorate since the last examination, even
though management had made significant progress by: (1) forming the SAG to resolve
problem credits, (2) restructuring the credit review function, and (3) identifying cost
savings. Nevertheless, examiners stated that the level of problem assets was
“objectionably” high and threatened the institution’s viability; capital protection was
insufficient for the high risk profile of the bank; operating losses were rapidly eroding
capital levels; liquidity was inadequate due to the high level of nonearning assets,
reliance on non-core funding sources, and limited borrowing capacity; and sensitivity to
market risk was unsatisfactory due to limited capital support and negative earnings.
Examiners noted that, although management had worked diligently toward raising
additional capital, immediate financial assistance was needed for the bank to remain


                                            19
viable. The Capital and Earnings components were further downgraded to a “5” and
Sensitivity to Market Risk was further downgraded to a “4”.

2010 Supervisory Activities

The FDIC conducted a final visitation in January 2010 that focused on asset quality, the
adequacy of the ALLL, and capital levels. Examiners stated in the visitation report that
capital levels continued to shrink and the bank fell into the Critically Undercapitalized
capital category per the PCA provisions of Part 325 of the FDIC Rules and Regulations.
The level of adversely classified assets remained substantial and threatened the
institution’s viability, and necessary loan loss reserve provisions remained high as did the
level of non-earning assets. As a result, capital levels had shrunk significantly, and the
ability to absorb even moderate losses was severely limited.

Supervisory Lessons Learned

DSC’s Examination Manual and the FDIC’s Formal and Informal Actions Procedures
Manual include provisions for examiners to make formal recommendations or initiate
formal or informal enforcement actions designed to address and correct identified
weaknesses in a bank’s financial condition, performance, risk management practices, or
regulatory compliance. Examination recommendations are intended to improve the
bank’s safety and soundness practices, and examiners should obtain affirmative
commitments from the bank’s management and its Board to correct problems and
weaknesses. The Examination Manual also includes a provision that examiners should
consider management’s responses to previous regulatory and auditor recommendations
when assigning the management rating. The Examination Manual further states that

       …to effectively prevent serious problems in an institution, the conditions and
       circumstances that may lead to problems must be identified and corrected early.
       Corrective action should be taken immediately upon identifying excessive risk
       taking…when corrective action is not taken until conditions have deteriorated it is
       often too late to avoid failure. Moral suasion and informal agreements are
       normally sufficient where the unacceptable risk-taking is identified early, but
       formal action must be considered, even when an institution is rated 1 or 2, if
       circumstances warrant.

In retrospect, Frontier’s risk profile was increasing by the 2007 examination, and a more
proactive supervisory approach may have been warranted at that time. Specifically,
greater emphasis on emerging risks, risk management practices, and management’s
responsiveness to prior recommendations would have been prudent when assigning
ratings. To that end, downgrades in the Management, Asset Quality, and/or Capital
component ratings, along with a downgrade in the composite rating, could have led to an
informal action — either a bank board resolution or an MOU — and provided the FDIC
with a better means to obtain Frontier’s commitment to improve: (1) monitoring of the
CRE concentration risks; (2) credit administration and loan underwriting practices; and
(3) liquidity contingency planning, all of which proved to be key factors in the bank’s
eventual failure in 2010.

                                             20
On January 26, 2010, the FDIC issued guidance to its examiners that defines procedures
for better ensuring that examiner concerns and recommendations are appropriately
tracked and addressed.12 Specifically, the guidance defines a standard approach for
communicating matters requiring Board attention (MRBA) (e.g., examiner concerns and
recommendations) in examination reports. The guidance also states that examination
staff should request a response from the institution regarding the actions that it will take
to mitigate the risks identified during the examination and correct noted deficiencies. In
addition, regional management should ensure: (1) MRBA items are addressed in the letter
transmitting the examination report to the bank and (2) bank responses are appropriate
and address supervisory concerns. Finally, the institution should provide periodic
progress reports for MRBA items that may require more time to correct or implement.

With respect to the bank’s doubling its brokered deposits while the 2008 examination
report was being processed and the C&D was being issued, in February 2009, the FDIC
began issuing “Dear CEO” letters to banks that were likely to be downgraded to a
composite “4” or “5” and in some cases a “3.”13 The letter states that banks are required
to obtain a non-objection from the FDIC Regional Director before engaging in any
transactions that would materially change the balance sheet composition, including
growth in total assets of 5 percent or more or significant changes in funding sources, such
as by [if applicable] increasing brokered deposits or volatile funding. These are interim
requirements until the Report of Examination and any corrective program are finalized.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-chartered nonmember banks that are not adequately
capitalized. The FDIC is required to closely monitor the institution’s compliance with its
capital restoration plan, mandatory restrictions defined under section 38(e), and
discretionary safeguards imposed by the FDIC (if any) to determine if the purposes of
PCA are being achieved. Based on the supervisory actions taken with respect to Frontier
Bank, we determined that the FDIC properly implemented applicable PCA provisions of
section 38.

Frontier was considered Well Capitalized for PCA purposes until March 20, 2009. The
bank fell to Adequately Capitalized at that time as a result of the issuance of a joint C&D
that contained a capital provision directing Frontier to increase its Tier 1 Capital “in such




12
   DSC Regional Directors Memorandum, entitled, Matters Requiring Board Attention (Transmittal No.
2010-003).
13
   The formal/official guidance related to the CEO letter was issued in September 2009 and was officially
announced in the September 2009, RD Memorandum/Transmittal No. 2009-042, entitled, Issuing
Examination Letters to Troubled Institutions.

                                                    21
an amount as to equal or exceed 10 percent” of the bank’s total assets.14 Section 325.103
of the FDIC Rules and Regulations states that a bank is deemed Well Capitalized if it
meets or exceeds the capital ratios defined in the section and is not subject to a written
agreement, order, capital directive, or prompt corrective action directive issued by the
FDIC pursuant to Section 8 of the FDI Act.15 As an Adequately Capitalized institution,
Frontier was restricted from accepting, renewing, or rolling over brokered deposits
without a waiver from the FDIC.16 The C&D further stated that the level of Tier 1
Capital to be maintained during the life of the Order would be in addition to a fully
funded ALLL. Table 10 illustrates Frontier Bank’s capital levels relative to the PCA
thresholds for Well Capitalized institutions for the quarters ending December 31, 2008
through March 31, 2010.

Table 9: Frontier’s Capital Levels

                          Tier 1
                          Leverage            Tier 1 Risk-         Total Risk-
     Period Ended         Capital             Based Capital        Based Capital           PCA Capital Category
 Well-Capitalized          5 percent or         6 percent or       10 percent or
 Thresholds                   more                 more                more

 Frontier’s Capital Levels
       12/31/08                 8.53                9.32                10.60          Well Capitalized
       3/31/09                  7.37                8.85                10.13          Adequately Capitalized*
       6/30/09                  6.49                7.86                9.13           Adequately Capitalized*
       9/30/09                  3.19                4.06                5.35           Significantly Undercapitalized
       12/31/09                 1.65                2.09                3.38           Critically Undercapitalized
       3/31/10                   .43                 .54                1.09           Critically Undercapitalized
Source: UBPRs for Frontier.
* Frontier’s capital category was lowered to Adequately Capitalized as of the March 20, 2009 C&D.


On December 2, 2009, the FDIC notified Frontier that it was Significantly
Undercapitalized based on the institution’s September 30, 2009 Call Report data.
Further, the FDIC informed Frontier that, as of September 30, 2009, it was subject to the
mandatory requirements of section 38, including submission of a capital plan and
restrictions on asset growth, acquisitions, new activities, new branches, payment of
dividends, or making other capital distributions, management fees, or senior executive
compensation. Frontier submitted a capital plan on January 15, 2010, and the FDIC
notified the bank on February 11, 2010, that the plan was inadequate.


14
   The FDIC did not formally notify Frontier of its new PCA category because FDIC policy does not
require written notification to institutions when they fall to Adequately Capitalized. FDIC policy does
require written notification to institutions when they fall to Undercapitalized, Significantly
Undercapitalized, or Critically Undercapitalized.
15
   The minimum capital ratios defined in Section 325.103 for Well Capitalized institutions are: (1) total risk
based capital of 10 percent or higher; (2) Tier 1 risk-based capital of 6 percent or higher; and (3) leverage
capital of 5 percent or greater. Actions under Section 8 of the FDI Act constitute formal proceedings
against respondents.
16
   FDIC officials stated that Frontier’s management did not apply for a brokered deposit waiver.

                                                           22
On February 19, 2010, the FDIC notified Frontier that it was Critically Undercapitalized
based on the January 11, 2010 visitation. The FDIC also informed Frontier that because
the bank had not submitted an acceptable capital restoration plan, the bank became
subject to the mandatory requirements of Section 38 on February 11, 2010, which
included the submission of a capital restoration plan and restrictions on asset growth,
acquisitions, new activities, and payment of dividends. The FDIC issued a Supervisory
PCA Directive on March 16, 2010, requiring bank management to, among other things,
recapitalize the bank within 30 days; refrain from obtaining, renewing, or rolling over
any brokered deposits; and restrict the interest rates that the bank paid on deposits.

On October 22, 2008, Frontier applied for $116 million in funds under the Troubled
Asset Relief Program (TARP).17 Frontier withdrew its application on May 28, 2009. As
previously mentioned, Frontier’s management signed a merger and acquisition agreement
with a private equity investor in July 2009. The private equity investor submitted an
application to become a bank holding company to the FRB, San Francisco. However,
due to unresolved issues, the application could not be approved by the October 10, 2009
deadline. The institution failed on April 30, 2010.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
December 2, 2010, the Director, DSC, provided a written response to the draft report.
That response is provided in its entirety as Appendix 4 of this report. DSC reiterated the
OIG’s conclusions regarding the causes of Frontier’s failure. With regard to our
assessment of the FDIC’s supervision of Frontier, DSC’s response discussed the number
of examinations conducted between 2006 and 2010 described in our report. Further,
DSC’s response reiterated that the 2008 joint FDIC/DFI examination revealed that
Frontier’s condition was unsatisfactory with deficiencies of such magnitude that a
composite “4” rating was assigned and a C&D issued. The 2009 examination concluded
that asset quality had further deteriorated, operating losses were rapidly eroding capital,
and liquidity was inadequate, and Frontier was downgraded to a composite “5” rating.
Frontier was unable to raise capital from external sources to support its operations and
remain viable.

DSC indicated that strong supervisory attention is necessary for institutions with high
CRE and ADC concentrations, such as Frontier, and referenced guidance that the division
has issued to remind examiners to take appropriate actions when risks associated with
those concentrations are imprudently managed. DSC also stated that supervisory
guidance has been issued to enhance the division’s supervision of institutions with
concentrated CRE/ADC lending and reliance on volatile non-core funding.

17
  TARP was established under the Emergency Economic Stabilization Act of 2008. The Act established
the Office of Financial Stability within the United States Department of the Treasury (Treasury). Under
TARP, Treasury will purchase up to $250 billion of senior preferred shares from qualifying institutions as
part of the Capital Purchase Program.

                                                    23
                                                                               Appendix 1

                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the DIF incurs a material
loss with respect to an insured depository institution, the Inspector General of the
appropriate federal banking agency shall prepare a report to that agency reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k)
of the FDI Act by increasing the MLR threshold from $25 million to $200 million for
losses that occur for the period January 1, 2010 through December 31, 2011. The FDI
Act requires that the report be completed within 6 months after it becomes apparent that a
material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from September 2010 to November 2010 in
accordance with generally accepted government auditing standards (GAGAS). Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Frontier’s operations from 2005 until its
failure on April 30, 2010. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

     •   Analyzed examination reports prepared by FDIC, DFI, and FRB examiners from
         2005 to 2010.

     •   Reviewed the following:

           •   Bank data contained in UBPRs and Call Reports.

           •   Correspondence files from DSC’s SFRO and Seattle Field Office.

           •   Select examination workpapers related to loans.




                                             24
                                                                                  Appendix 1

                         Objectives, Scope, and Methodology

             •    Reports prepared by the Division of Resolutions and Receiverships (DRR)
                  and DSC relating to the bank’s closure.

             •    Pertinent DSC policies and procedures and various banking laws and
                  regulations.

     •   DSC’s ViSION Modules, including Supervisory Tracking & Reporting.

We also interviewed FDIC Regional Office and Field Office officials responsible for
supervisory oversight of Frontier.

We engaged KPMG to perform audit procedures designed to assess the bank’s credit risk
management practices and use of brokered deposits, as well as to assess the FDIC’s
supervisory response to risks in those areas. As part of its audit work, KPMG reviewed a
non-statistical sample of 10 borrower relationships to determine if the FDIC had
reviewed and classified borrower loans as appropriate. Specifically, KPMG reviewed the
examination report loan write-up, loan line sheet, and other loan-related documentation
and any relevant loan records that may have been retained by DRR and determined for
the sampled loans whether:

         •       the examiners adequately assessed their collectability and assigned a
                 classification to the loans, when appropriate;

         •       any impairment calculated by the examiners was properly reflected in the
                 examiners’ ALLL analysis;

         •       any loan underwriting or credit administration weaknesses identified were
                 consistent with the credit risk management weaknesses and conclusions
                 documented in the examination report; and

         •       Frontier management identified losses for each loan within the sample (and
                 related Other Real Estate) and reflected those losses in the bank’s ALLL
                 analysis in a timely manner.

KPMG conducted its work in accordance with GAGAS.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand Frontier’s management
controls pertaining to causes of failure and material loss as discussed in the body of this
report.

                                                 25
                                                                              Appendix 1

                   Objectives, Scope, and Methodology


We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including reports of examination, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.


Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives of
which are to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in May
2010, the OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.




                                            26
                                                                                   Appendix 2

                                Glossary of Terms


Term                 Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development, and funding for acquiring and developing land for future construction, and
Construction     providing interim financing for residential or commercial structures.
(ADC) Loans
Adversely            Assets subject to criticism and/or comment in an examination report.
Classified Assets    Adversely classified assets are allocated on the basis of risk (lowest to
                     highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for        The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease       the book value of loans and leases to the amount that is expected to be
Losses (ALLL)        collected. It is established in recognition that some loans in the
                     institution’s overall loan and lease portfolio will not be repaid. Boards
                     of directors are responsible for ensuring that their institutions have
                     controls in place to consistently determine the allowance in accordance
                     with the institutions’ stated policies and procedures, generally accepted
                     accounting principles, and supervisory guidance.
Bank Board           A Bank Board Resolution is an informal commitment adopted by a
Resolution (BBR)     financial institution’s Board of Directors (often at the request of the
                     FDIC) directing the institution’s personnel to take corrective action
                     regarding specific noted deficiencies. A BBR may also be used as a tool
                     to strengthen and monitor the institution’s progress with regard to a
                     particular component rating or activity.
Call Report          The report filed by a bank pursuant to 12 United States Code (U.S.C.)
                     1817(a)(1), which requires each insured State nonmember bank and each
                     foreign bank having an insured branch which is not a Federal branch to
                     make to the Corporation reports of condition in a form that shall contain
                     such information as the Board of Directors may require. These reports
                     are used to calculate deposit insurance assessments and monitor the
                     condition, performance, and risk profile of individual banks and the
                     banking industry.

Cease and Desist     A C&D is a formal enforcement action issued by a financial institution
Order (C&D)          regulator to a bank or affiliated party to stop an unsafe or unsound
                     practice or a violation of laws and regulations. A C&D may be
                     terminated when the bank’s condition has significantly improved and the
                     action is no longer needed or the bank has materially complied with its
                     terms.
Commercial Real      CRE loans are land development and construction loans (including 1-to-
Estate (CRE)         4 family residential and commercial construction loans) and other land
Loans                loans. CRE loans also include loans secured by multifamily property and
                     nonfarm nonresidential property, where the primary source of repayment
                     is derived from rental income associated with the property or the
                     proceeds of the sale, refinancing, or permanent financing of the property.




                                              27
                                                                                 Appendix 2

                               Glossary of Terms

Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.

FDIC’s              The FDIC’s supervision program promotes the safety and soundness of
Supervision         FDIC-supervised institutions, protects consumers’ rights, and promotes
Program             community investment initiatives by FDIC-supervised institutions. The
                    FDIC’s Division of Supervision and Consumer Protection (DSC) (1)
                    performs examinations of FDIC-supervised institutions to assess their
                    overall financial condition, management policies and practices
                    (including internal control systems), and compliance with applicable
                    laws and regulations and (2) issues related guidance to institutions and
                    examiners.

Material Loss       As defined by section 38(k)(2)(B) of the FDI Act, and as amended by
                    the Dodd-Frank Wall Street Reform and Consumer Protection Act, for
                    the period beginning January 1, 2010 and ending December 31, 2011, a
                    material loss is defined as any estimated loss in excess of $200 million.
Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern but which have not deteriorated to the point
(MOU)               where they warrant formal administrative action. As a general rule, this
                    action is to be considered for all institutions rated a composite “3”.

Offsite Review      The FDIC’s Offsite Review Program is designed to identify emerging
Program             supervisory concerns and potential problems so that supervisory
                    strategies can be adjusted appropriately. Offsite reviews are performed
                    quarterly for each bank that appears on the Offsite Review List.
                    Regional management is responsible for implementing procedures to
                    ensure that Offsite Review findings are factored into examination
                    schedules and other supervisory activities.

Peer Group          Institutions are assigned to 1 of 15 peer groups based on asset size,
                    number of branches, and whether the institution is located in a
                    metropolitan or non-metropolitan area.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the Deposit Insurance
(PCA)               Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code
                    of Federal Regulations, section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 United States Code
                    section 1831(o), by establishing a framework for determining capital
                    adequacy and taking supervisory actions against depository institutions
                    that are in an unsafe or unsound condition. The following terms are used
                    to describe capital adequacy: (1) Well Capitalized, (2) Adequately
                    Capitalized, (3) Undercapitalized, (4) Significantly Undercapitalized,
                    and (5) Critically Undercapitalized. A PCA Directive is a formal
                    enforcement action seeking corrective action or compliance with the
                    PCA statute with respect to an institution that falls within any of the
                    three categories of undercapitalized institutions.

                                            28
                                                                              Appendix 2

                            Glossary of Terms

Risk-Based       A “supplemental” capital standard under Part 325 of the FDIC Rules and
Capital          Regulations. Under the risk-based framework, a bank’s qualifying total
                 capital base consists of two types of capital elements, “core capital”
                 (Tier 1) and “supplementary capital” (Tier 2).

Tier 1 (Core)    In general, this term is defined in Part 325 of the FDIC Rules and
Capital          Regulations, 12 C.F.R. section 325.2(v), as
                 The sum of:
                 • Common stockholder’s equity (common stock and related surplus,
                 undivided profits, disclosed capital reserves, foreign currency translation
                 adjustments, less net unrealized losses on available-for-sale securities
                 with readily determinable market values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in financial subsidiaries subject to section 12 C.F.R.
                  part 362; and
                 • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Troubled Asset   TARP is a program of the United States Department of the Treasury to
Relief Program   purchase assets and equity from financial institutions to strengthen the
(TARP)           financial sector.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group
Report (UBPR)    performance. The report is produced by the Federal Financial
                 Institutions Examination Council for the use of banking supervisors,
                 bankers, and the general public and is produced quarterly from data
                 reported in Reports of Condition and Income submitted by banks.

Uniform          Financial institution regulators and examiners use the Uniform Financial
Financial        Institutions Rating System (UFIRS) to evaluate a bank’s performance in
Institutions     six components represented by the CAMELS acronym: Capital
Rating System    adequacy, Asset quality, Management practices, Earnings performance,
                 Liquidity position, and Sensitivity to market risk. Each component, and
(UFIRS)
                 an overall composite score, is assigned a rating of 1 through 5, with 1
                 having the least regulatory concern and 5 having the greatest concern.




                                         29
                                                            Appendix 3

                         Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CD       Certificate of Deposit
CRE      Commercial Real Estate
DFI      Department of Financial Institutions
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
FRB      Federal Reserve Board
GAAP     Generally Accepted Accounting Principles
MLR      Material Loss Review
MOU      Memorandum of Understanding
OIG      Office of Inspector General
OREO     Other Real Estate Owned
PCA      Prompt Corrective Action
ROE      Report of Examination
TARP     Troubled Asset Relief Program
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                               30
                                                                                        Appendix 4

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990                Division of Supervision and Consumer Protection

                                                                         December 1, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson [signed by Sandra L. Thompson]
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of Frontier
                 Bank, Everett, Washington (Assignment 2010-072)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act (Financial Reform Act), the Federal Deposit
Insurance Corporation’s Office of Inspector General (OIG) conducted a Material Loss Review of
Frontier Bank (Frontier), which failed on April 30, 2010. This memorandum is the response of the
Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft Report (Report)
received on November 3, 2010.

Frontier failed primarily because of the Board’s and management’s decision to concentrate the loan
portfolio in commercial real estate (CRE) and acquisition, development and construction (ADC) loans,
and its failure to implement prudent risk management practices necessary to monitor and manage the
portfolio. Frontier’s capital levels did not support the risks associated with its high CRE and ADC
concentrations. Additionally, Frontier relied heavily on volatile funding sources, including brokered
deposits and FHLB borrowings, which contributed to its liquidity problems and subsequent failure.

From 2006 to 2010, the FDIC and the Washington Department of Financial Institutions (DFI)
provided ongoing supervisory oversight of Frontier with four on-site risk management examinations,
supplemented by two on-site visitations. The 2008 joint examination revealed the condition of
Frontier was unsatisfactory with deficiencies of such magnitude that a composite “4” rating was
assigned and a Cease and Desist order issued. The 2009 examination concluded asset quality had
further deteriorated, operating losses were rapidly eroding capital, and liquidity was inadequate.
Frontier was further downgraded to a composite “5” rating. Frontier was unable to raise capital from
external sources to support its operations and remain viable.

We recognize that strong supervisory attention is necessary for institutions with high CRE and ADC
concentrations, such as Frontier, and we have updated guidance reminding examiners to take
appropriate actions when those risks are imprudently managed. DSC issued a Financial Institution
Letter (FIL) to banks on Managing Commercial Real Estate Concentrations in a Challenging
Environment that re-emphasizes the importance of robust credit risk-management practices for
institutions with concentrated CRE exposures. Additionally, DSC issued a FIL in 2009 on The Use
 of Volatile or Special Funding Sources by Financial Institutions That Are in a Weakened Condition
to enhance our supervision of institutions with concentrated CRE/ADC lending and reliance on
volatile non-core funding.

Thank you for the opportunity to review and comment on the Report.

                                                    31
